No. 19A960
In the

Supreme Court of the United States
_______________________________
CHAD F. WOLF, ET AL.,
Applicants,
v.
INNOVATION LAW LAB, ET AL.,
Respondents.
_______________________________
RESPONDENTS’ OPPOSITION TO APPLICATION FOR STAY
_______________________________
Cecillia Wang
Katrina Eiland
Cody Wofsy
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
39 Drumm Street
San Francisco, CA 94111
David Cole
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15th Street NW
Washington, DC 20005
Melissa Crow
SOUTHERN POVERTY LAW CENTER
1101 17th Street, NW Suite 705
Washington, D.C. 20036
Gracie Willis
SOUTHERN POVERTY LAW CENTER
150 East Ponce de Leon Avenue
Suite 340
Decatur, GA 30030

Judy Rabinovitz
Counsel of Record
Michael Tan
Anand Balakrishnan
Daniel Galindo
Celso Javier Perez
Omar Jadwat
Lee Gelernt
Steven Watt
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 Broad Street
New York, NY 10004
212-549-2618
jrabinovitz@aclu.org
Sean Riordan
AMERICAN CIVIL LIBERTIES UNION OF
NORTHERN CALIFORNIA, INC.
39 Drumm Street
San Francisco, CA 94111
Additional counsel on next page

Blaine Bookey
Karen Musalo
Kathryn Jastram
Sayoni Maitra
Anne Peterson
CENTER FOR GENDER AND REFUGEE
STUDIES
200 McAllister St.
San Francisco, CA 94102
Attorneys for Respondents Innovation Law Lab, et al.

CORPORATE DISCLOSURE STATEMENT
In accordance with United States Supreme Court Rule 29.6, Respondents
make the following disclosures:
1) Respondents Innovation Law Lab, Central American Resource Center of
Northern California; Centro Legal de la Raza, Immigration and Deportation
Defense Clinic at the University of San Francisco School of Law, Al Otro Lado, and
Tahirih Justice Center do not have parent corporations.
2) No publicly held company owns ten percent or more of the stock of any
Respondent.

i

INTRODUCTION
On January 28, 2019, the government initiated an unprecedented policy that
fundamentally changed the Nation’s asylum system, contrary to Congress’s design
and the United States’ treaty obligations. Pursuant to the “Migrant Protection
Protocols” (“MPP”), the government sends non-Mexicans seeking asylum at the
southern border back to Mexico and requires them to remain there until the
conclusion of their removal proceedings in the United States. Since MPP’s inception,
the government has returned more than 60,000 asylum seekers to Mexico, where
they are exposed to kidnapping, assault, rape, and other violent attacks on account
of their being non-Mexican migrants.
The district court correctly concluded that MPP is not statutorily authorized
and violates our country’s obligations under domestic and international law not to
expel individuals to persecution or torture (“non-refoulement”). App. 116a-128a. The
court of appeals affirmed that ruling, holding that there is no “serious possibility
that the MPP is consistent with [federal law].” Id. at 11a.
This Court should deny the government’s request for a stay of the
preliminary injunction pending its petition for certiorari. The government has failed
to show either likelihood of success on the merits or irreparable harm. As the court
of appeals held, MPP violates the plain language of 8 U.S.C. § 1225(b)(2). That is
also the only interpretation that comports with this Court’s analysis of the statutory
scheme, §§ 1225(b)(1) and (2), in Jennings v. Rodriguez, 138 S. Ct. 830 (2018).
Indeed, Congress knew that most asylum seekers arrive at the border without
1

documents and specifically exempted them from return to a contiguous territory
under § 1225(b)(2)(C).
The government has also failed to show that MPP does not violate the United
States’ obligation of non-refoulement, codified at 8 U.S.C. § 1231(b)(3)(A). The court
of appeals correctly held that MPP provides patently inadequate procedures to
determine who would face persecution or torture if returned to Mexico. See App.
47a-61a. Immigration officers do not even notify asylum seekers that they face
return to Mexico under MPP or ask if they fear return there. Instead, asylum
seekers must express their fears affirmatively, without any notice, in order even to
be referred for a fear screening. Id. at 50a-51a. Five of the six federal judges who
have considered the legality of MPP have indicated that, on this ground alone, the
policy is almost certainly illegal. See Statement, infra. The policy is additionally
illegal because it imposes an unreasonably high screening standard without the
most basic procedural protections. See App. 50a-51a. As the record establishes,
these wholly deficient procedures result in the routine return of asylum seekers to
persecution and torture in Mexico. See id. at 53a-60a.
The government claims irreparable harm based on myriad problems they
predict will result from the injunction. For example, they claim people crowded
ports of entry when the stay of the injunction was lifted by the court of appeals, and
would do so again if a stay is not granted. See Stay Appl. 33-36. But these claims—
even if true—do not justify the return of thousands of additional asylum seekers to
danger under a policy that is clearly illegal. As the court of appeals found, asylum
2

seekers returned to Mexico under MPP risk substantial harm, even death. App. 62a.
Indeed, the U.S. State Department itself has recognized the victimization of
migrants in Mexico, including kidnappings, extortion, and sexual violence. See
Statement, infra.
The government argues that any change to MPP now would disrupt the
status quo. Stay Appl. 37. But the government should not be able to use its own
conduct over the past ten months, during which it aggressively expanded MPP
while the injunction was stayed pending appeal, as a reason to obtain a further
stay. Preliminary injunctions are meant to “preserve the relative positions of the
parties,” Univ. of Tex. v. Camenisch, 451 U.S. 390, 395 (1981), prior to the unlawful
conduct at issue. And this case demonstrates precisely why: If the government’s
illegal policy had not been instituted and expanded, the government would not now
be faced with the challenge of how to remedy the situation of people who were
unlawfully returned to Mexico.
In any event, by its plain language, the injunction does not provide a right of
re-entry to individuals who were returned to Mexico, except for the Individual
Plaintiffs. See App. 130a n.14, 131a. Even were others to request re-entry once the
injunction takes effect, such requests would be short-lived once it becomes apparent
that individuals are not being granted entry. And if the government views the
injunction as ambiguous on this point, nothing prevents it from asking this Court to
clarify that the injunction provides no right of re-entry, or to stay the injunction to
the extent that it somehow does so.
3

Finally, there is no basis for narrowing the scope of the injunction to the
Individual Plaintiffs and the Plaintiff Organizations’ known clients, as the
government proposes. See Stay Appl. 38-40. The Administrative Procedure Act
(“APA”) authorizes courts to “set aside” unlawful agency policies. See 5 U.S.C. §
706(2). The preliminary injunction is entirely consistent with this relief. The
injunction is also necessary to address the injury that MPP has caused Plaintiffs—
including the significant diversion of resources from the Plaintiff Organizations’
core mission of providing life-saving representation to asylum seekers.
In short, the government’s stay application should be denied.
STATEMENT
1.

Prior to January 2019, asylum seekers at the southern border could

present their claims for protection while in the United States, in either expedited
removal or full removal proceedings.
Because most asylum seekers at the southern border lack valid entry
documents, they are subject to removal under 8 U.S.C. § 1225(b)(1).1 This provision,
enacted as part of the Illegal Immigration Reform and Immigrant Responsibility
Act of 1996, applies to certain individuals who are inadmissible solely under
§§ 1182(a)(6)(C) or (7) for seeking admission by fraud or without proper entry
documents. Section 1225(b)(1) is referred to as the “expedited removal statute”
because it authorizes the summary removal of individuals, without a hearing in
immigration court.

1

Unless otherwise specified, all statutory citations are to Title 8 of the U.S. Code.
4

Recognizing that many individuals who lack valid entry documents are bona
fide asylum seekers, Congress created an exception to expedited removal for those
who could establish a “credible fear” of persecution or torture. Individuals who
express a fear of persecution or torture are referred to an asylum officer for a
credible fear interview to assess whether they have potentially meritorious asylum
claims. See §§ 1225(b)(1)(A)(i), (ii). If they make that showing, they are placed into
regular removal proceedings under § 1229a. See § 1225(b)(1)(B)(ii); 8 C.F.R.
§ 208.30(f).
The Department of Homeland Security (“DHS”) also has prosecutorial
discretion to bypass the credible fear process and place individuals who arrive or
enter without proper documents directly into regular removal proceedings. See, e.g.,
Matter of E-R-M- & L-R-M-, 25 I. & N. Dec. 520, 521-24 (BIA 2011).
2.

In December 2018, DHS announced it would begin implementing the

contiguous territory return provision, § 1225(b)(2)(C), “on a large-scale basis.”
Suppl. App. 1a. Under this provision, certain individuals “arriving on land . . . from
a foreign territory contiguous to the United States” may be returned “to that
territory pending [regular removal proceedings] under section 1229a.” Though
enacted in 1996, the provision has never before been implemented on a large scale.
On January 28, 2019 DHS began implementing its new policy, which it
labeled the Migrant Protection Protocols (“MPP”). Under this policy, DHS places
certain individuals seeking asylum at the border directly into regular, rather than
expedited, removal proceedings, and returns them to Mexico for the duration of
5

those proceedings. Suppl. App. 1a. The policy applies to nationals of any country
except Mexico who arrive in or enter the United States from Mexico “illegally or
without prior documentation.” Id. MPP thus creates a forced return policy for
asylum seekers who previously would have been entitled to remain in the United
States pending their removal proceedings.
In official memoranda, the government stated that the forced return policy
must be implemented “consistent with the non-refoulement principles contained in
Article 33 of the 1951 Convention Relating to the Status of Refugees [“Refugee
Convention”] . . . and Article 3 of the Convention Against Torture [“CAT”].” Suppl.
App. 6a, 3a. Nonetheless, the procedure the government created for meeting this
obligation consists of a single interview by an asylum officer—held within days, if
not hours of the individual’s encounter with Customs and Border Protection
(“CBP”). At that interview, the asylum officer determines if the individual is more
likely than not to face persecution or torture in Mexico. This is the ultimate
standard applied in full § 1229a removal proceedings, which—unlike the fear
interview—include a panoply of procedural safeguards. These include the right to
consult with and be represented by counsel, the right to a decision by an
immigration judge, and the right to appellate review. See, e.g., 8 U.S.C.
§§ 1229a(b)(4) (right to consult an attorney and review evidence), (c)(1) (right to a
decision by an immigration judge), (c)(5) (right to appeal that decision, and to be
notified of this right). In contrast, MPP fear interviews contain none of these basic
safeguards. Suppl. App. 7a. Moreover, individuals are referred for that interview
6

only if they affirmatively express a fear of return to Mexico during processing: CBP
officers do not advise them of the possibility of a fear interview or even tell them
that they will be sent to Mexico if they do not ask for an interview and prove their
case. Id.; see also id. at 567a (amicus brief of asylum officers’ union, noting fear of
persecution in Mexico is something most asylum seekers “would not volunteer when
being apprehended at the border”); id. at 12a-16a, 22a-25a (plaintiff declarations
documenting apprehension and interrogation pursuant to MPP); id. at 488a-92a
(amicus brief of the United Nations High Commissioner for Refugees, explaining
the proper standards for non-refoulement fear screenings).
3.

The government first implemented MPP at the San Ysidro port of

entry in California. Suppl. App. 29a. MPP is now applied across the southern border
to both families with minor children and single adults who present themselves at
most ports of entry, as well as those who cross the border between certain ports. Id.
at 344a. More than 60,000 individuals have been forced back to Mexico pursuant to
the policy. Stay Appl. 14.
Although the principal goal of MPP was ostensibly to prevent fraudulent
asylum seekers from gaining entry to the United States, DHS claimed that the
policy would also ensure that “vulnerable populations get the protection they need,”
“strengthen our humanitarian commitments” to “legitimate asylum seekers,” and
comply “with all domestic and international legal obligations.” Suppl. App. 30a.
4.

MPP has put asylum seekers directly in harm’s way. Asylum seekers

returned to Mexico are sent to some of the most violent areas in the world. See
7

Mexico

Travel

Advisory

(Dec.

17,

2019),

https://travel.state.gov/content/travel/en/traveladvisories/traveladvisories/mexicotravel-advisory.html (State Department advisory issuing a “Level 4: Do Not Travel”
for Mexican border state of Tamaulipas—the same threat level as active war zones
as well as China due to the COVID-19 outbreak); Suppl. App. 603a-13a (amicus
brief of international human rights organizations explaining the dangers for
migrants forced to remain in Mexico); id. at 661a-64a (amicus brief documenting
cases of individuals returned to danger). Indeed, the U.S. State Department itself
has recognized the “victimization of migrants” in Mexico “by criminal groups and in
some cases by police, immigration officers, and customs officials,” including
kidnappings, extortion, and sexual violence. See U.S. State Dep’t, Mexico 2018
Human Rights Report at 19-20 (Mar. 2019) available at https://www.state.gov/wpcontent/uploads/2019/03/MEXICO-2018.pdf (hereinafter “2018 State Dep’t Report”)
(noting spread of Central American gangs to Mexico and resulting threat to
“migrants who had fled the same gangs in their home countries.”).
In the months since MPP has been in effect, reports of murder, rape, torture,
kidnapping, and other violent assaults against returned asylum seekers have
climbed.

See

Human

Rights

First,

Delivered

to

Danger,

available

at

https://www.humanrightsfirst.org/campaign/remain-mexico (last visited March 9,
2020) (reporting, as of February 28, 2020, “at least 1,001 publicly reported cases of
murder, rape, torture, kidnapping, and other violent assaults” against migrants in
MPP). Asylum seekers face extreme harm from Mexican cartels, corrupt
8

government officials, and the same Central American gangs that many fled their
home countries to escape; they also face anti-migrant hostility that has been fueled
by the increased numbers of people being returned. See 2018 State Dep’t Report at
7, 9, 19-20, 27, 33, 35; Suppl. App. 68a-69a, 90a, 103a-106a, 113a-114a, 42a-46a,
127a-28a, 133a-35a, 142a, 148a-53a, 158a, 173a-74a, 199a-200a, 672a-73a.
People forcibly sent to Mexico also face a daily struggle to survive. They must
find places to live, and means of support, in border regions where the few shelters
and support services are already well beyond capacity, and where migrants lack any
support network of their own. See, e.g., Suppl. App. 218a-19a, 228a. Few have
permission to work, and even those who do are often too afraid to go out and seek it.
See, e.g., id. at 238a, 248a, 257a.
5.

MPP has resulted in an exceptionally low rate of asylum grants—less

than one percent—and an exceptionally high number of in absentia removal orders
when compared to asylum seekers allowed to seek protection from within the
United States. Suppl. App. 681a-83a. This data strongly suggests that MPP has
prevented thousands of bona fide asylum seekers from obtaining protection. No
evidence establishes that “illegal immigration and false asylum claims” have
declined as a result of MPP, or that MPP is “assisting legitimate asylum seekers.”
Id. at 44a; see also id. at 677a-79a (explaining how decreased migrant flows are
attributable more to the Mexican government’s stepped up enforcement on its
southern border than to MPP).

9

The forced return policy has overwhelmed Mexican border communities
unable to receive tens of thousands of asylum seekers. Suppl. App. 672a-73a
(declaration of former Mexican ambassador to the U.S. explaining the Mexican
government’s inability to cope with the influx of migrants); id. at 527a-32a (amicus
brief of former U.S. officials explaining the same).
6.

Plaintiffs are organizations serving migrants, and individuals who fled

death threats and violence in their home countries, only to be returned to Mexico
when they attempted to seek asylum in the United States. See Suppl. App. 211a-89a
(plaintiff declarations).
On April 10, 2019, the district court granted a preliminary injunction against
MPP. App. 131a. The district court found that the Individual Plaintiffs had made an
“uncontested” showing that they “fled their homes” to “escape extreme violence,
including rape and death threats,” and faced “physical and verbal assaults” in
Mexico. Id. at 128a. It further found that the Plaintiff Organizations had shown “a
likelihood of harm” to “their ability to carry out their core mission of providing
representation to aliens seeking admission, including asylum seekers.” Id. The court
thus held Plaintiffs were “likely to suffer irreparable harm” if the policy continued.
Id.
The district court enjoined the government from “continuing to implement or
expand” MPP, and ordered the government to “permit the named individual
plaintiffs to enter the United States,” where they would be “detained or paroled” at
the government’s option. Id. at 131a. At the same time, the district court declined to
10

“determine[] if any individuals” already returned to Mexico under MPP, “other than
those appearing as plaintiffs in this action, should be offered the opportunity to reenter the United States.” Id. at 130a n.14.
7.

The district court delayed the injunction’s effect to allow the

government to seek a stay pending appeal, App. 130a, which the court of appeals
motions panel granted on May 7, 2019. Id. 85a. The motions panel issued three
opinions, including a lengthy opinion from Judge Fletcher concurring “only in the
result.” App. 89a. In their per curiam opinion, Judges O’Scannlain and Watford
stated that Plaintiffs were unlikely to prevail on their claim that MPP violates the
contiguous-territory-return statute or on their notice-and-comment claim—the only
two claims they said could justify the injunction “in its present form.” Id. at 81a85a.
The per curiam opinion did not address Plaintiffs’ non-refoulement claims,
and did not contain any legal analysis as to why those claims could not support the
injunction. The opinion only briefly discussed the balance of hardships, noting that
Plaintiffs feared substantial injury in Mexico, but deeming this risk to be
“somewhat” reduced by Mexico’s apparent “commitment to honor its internationallaw obligations and to grant humanitarian status and work permits to individuals
returned.” Id. at 85a.
Judge Watford wrote separately to address the non-refoulement issue. He
concluded that MPP’s fear-assessment procedures were “so ill-suited to achieving
[the] stated goal [of non-refoulement] as to render them arbitrary and capricious
11

under the [APA].” Id. at 87a (Watford, J., concurring). In particular, Judge Watford
found the fact that “immigration officers do not ask applicants being returned to
Mexico whether they fear persecution or torture in that country” to be a “glaring
deficiency” that was “virtually guaranteed to result in . . . applicants being returned
to Mexico in violation of the United States’ non-refoulement obligations.” App. 87a88a. Thus, he “expect[ed] that appropriate relief . . . [would] involve (at the very
least) an injunction directing DHS to ask applicants for admission whether they
fear being returned to Mexico.” Id. at 88a–89a.
Judge Fletcher wrote separately to express his strong disagreement with the
majority’s analysis of the contiguous-territory-return provision. Id. at 89a-104a
(Fletcher, J., concurring only in the result).
8.

The court of appeals affirmed the district court’s injunction on

February 28, 2020. Id. at 14a. As a threshold matter, the merits panel held it was
not bound by the motions panel’s legal analysis, because “[s]uch a decision by a
motions panel is ‘a probabilistic endeavor,’ ‘doctrinally distinct’ from the question
considered by the later merits panel, and ‘issued without oral argument, on limited
timelines, and in reliance on limited briefing.’” Id. at 32a. (citations omitted).
The panel concluded that Plaintiffs had “shown a likelihood of success on
their claim that the return-to-Mexico requirement of the MPP is inconsistent with 8
U.S.C. § 1225(b).” Id. at 33a. Relying on this Court’s decision in Jennings v.
Rodriguez, 138 S. Ct. 830 (2018), the panel distinguished between applicants for
admission described in § 1225(b)(1)—that is, noncitizens traveling with fraudulent
12

or no documents—and “other aliens” deemed inadmissible in § 1225(b)(2). Id. at
38a–39a. The panel reasoned that, under the plain language of the statute, the
procedures authorized by § (b)(2)—including the forced return policy—do not apply
to individuals described in § (b)(1). Id. at 41a–42a (discussing § 1225(b)(2)(B)). Thus,
the panel held that because § (b)(1) “applies” to the Individual Plaintiffs and other
asylum seekers, the government cannot subject them to MPP. Id. at 46a.
The panel also held Plaintiffs were likely to prevail on their non-refoulement
claim. Id. at 47a-48a. The panel concluded that MPP’s fear screenings violated the
United States’ non-refoulement obligations, as codified in § 1231(b)(3)(A), for several
reasons: (1) they adopted an impermissibly high evidentiary standard; (2) they
failed to provide asylum seekers notice, time to prepare, time to consult with
counsel, or a review of the screening decision; and (3) they did not even notify
asylum seekers of their right to request a fear screening. Id. at 50a–51a. The panel
further found that “[u]uncontested evidence in the record establishes that nonMexicans returned to Mexico under MPP risk substantial harm, even death, while
they await adjudication of their applications for asylum.” App. 62a.
Judge Fernandez dissented, reasoning that the stay panel’s conclusions in its
prior opinion were “both the law of the circuit and the law of the case.” Id. at 66a70a. While expressing no opinion on the merits of the claims reached by the panel,
he noted “dearth of support for the government’s unique rule that an alien
processed under the MPP must spontaneously proclaim his fear of persecution or
torture in Mexico.” Id.
13

That same day, the government sought a stay of the court of appeals’ ruling
pending its petition for a writ of certiorari in this Court. Stay Appl. 19. The court of
appeals granted an administrative stay pending briefing by the parties. Id. On
March 4, the panel granted the stay motion in part and denied it in part. App. 1a12a. The panel stayed the injunction pending certiorari outside the Ninth Circuit.
App. 11a. But because the panel could see “[no] serious possibility that MPP is
consistent with” the Immigration and Nationality Act (“INA”), it declined to issue a
stay within the Ninth Circuit, and ordered that the injunction would take effect on
March 12 absent a stay from this Court. App. 11a-12a. Judge Fernandez would have
granted a full stay pending certiorari. App. 13a.
ARGUMENT
The government bears a “heavy burden” to justify the “extraordinary” relief
of a stay. Whalen v. Roe, 423 U.S. 1313, 1316 (1975) (Marshall, J., in chambers). It
must establish “(1) a reasonable probability that four Justices will consider the
issue sufficiently meritorious to grant certiorari; (2) a fair prospect that a majority
of the Court will vote to reverse the judgment below; and (3) a likelihood that
irreparable harm will result from the denial of a stay.” Hollingsworth v. Perry, 558
U.S. 183, 190 (2010).
I.

THE GOVERNMENT IS UNLIKELY TO PREVAIL ON THE MERITS.
Because likelihood of success on the merits is “critical,” Nken v. Holder, 556

U.S. 418, 434 (2009), the Court may reject the stay application on this basis alone.

14

Because the injunction rests on two independent legal grounds, the stay must be
denied unless the government is able to show likelihood of success on both grounds.
A.

MPP Violates 8 U.S.C. § 1225(b)(2)(C).

Both the district court and the court of appeals correctly held that the
government’s forced return policy likely violates the contiguous-territory-return
statute, § 1225(b)(2)(C)—the very statute the government cites as authority for the
policy. See App. 116a-123a; App. 33a-47a.2
Section 1225 divides noncitizens seeking admission into two classes, and
authorizes return to a “contiguous territory” pending removal proceedings only as to
one of these two classes. Section 1225(b)(1) subjects noncitizens who arrive without
valid documents or who engage in fraud or misrepresentation, and who are
inadmissibly solely on those grounds, to “expedited removal.” § 1225(b)(1). Section
1225(b)(2) applies to all other noncitizens seeking entry who are not clearly eligible
for admission. See § 1225(b)(2) (referring to “Inspection of other aliens” (emphasis
added)). The authority to return noncitizens to a contiguous territory applies only to
noncitizens in the latter category. By its plain language, the contiguous-territoryreturn provision, § 1225(b)(2)(C), does not apply to individuals, like Plaintiffs, who
are subject to expedited removal under § 1225(b)(1). The plain language of §
1225(b)(2)(C) and § 1225(b)(2)(B)(ii) makes clear that Congress did not intend the
contiguous territory provision to apply to individuals to whom § 1225(b)(1) “applies.”
The contiguous territory return provision, § 1225(b)(2)(C), appears under §
The text of § 1225 is included in the supplemental appendix. Suppl. App. 690a97a.
15
2

1225(b)(2) and applies only to applicants under § (b)(2), not to applicants under §
(b)(1). App. 41a.
1.

The contiguous territory return provision, § 1225(b)(2)(C), expressly

limits its application to “an alien described in subparagraph (A)” of § 1225(b)(2).
That subparagraph, in turn, is expressly limited by § 1225(b)(2)(B)(ii), which states
that “Subparagraph (A) shall not apply” to an individual to whom § 1225(b)(1)
“applies.” Yet the government subjects the very people to whom § 1225(b)(1)
“applies” to MPP. Suppl. App. 290a (MPP applies to “individuals entering or seeking
admission to the U.S. from Mexico—illegally or without proper documentation”).
The policy thus violates the contiguous territory return statute, § 1225(b)(2)(C).
2.

As the court of appeals correctly held, the government’s argument to

the contrary suffers from three critical flaws. First, the court of appeals rejected the
government’s position that people to whom § 1225(b)(1) applies—i.e., those
inadmissible because they lack proper entry documents or because of fraud or
misrepresentation—nonetheless fall under § 1225(b)(2) when they have been placed
in regular removal proceedings. App. 40a. The government’s argument that § (b)(1)
and § (b)(2) describe “overlap[ping]” classes, Stay Appl. 9, is fundamentally at odds
with this Court’s decision in Jennings v. Rodriguez, 138 S. Ct. 830 (2018):
[A]pplicants for admission fall into one of two categories, those covered
by § 1225(b)(1) and those covered by § 1225(b)(2). Section 1225(b)(1)
applies to aliens initially determined to be inadmissible due to fraud,
misrepresentation, or lack of valid documentation . . . . Section
1225(b)(2) is broader. It serves as a catchall provision that applies to
all applicants for admission not covered by § 1225(b)(1).

16

Jennings, 138 S. Ct. at 837 (emphasis added) (citations omitted) (cited in App. 38a39a).
The government relies on Jennings’ characterization of § 1225(b)(2)(a) as a
“catchall provision” to argue that it includes those described separately in (b)(1).
Stay Appl. 9. But the government takes the language out of context, ignoring what
precedes and follows it: “[a]pplicants for admission fall into one of two categories”—
that is, § 1225(b)(1) or (b)(2), not both. Jennings, 138 S. Ct. at 837 (emphasis added).
Section 1225(b)(2) “serves as a catchall provision that applies to all applicants not
covered by 1225(b)(1).” Id. (emphasis added). Thus, the government’s position is
simply irreconcilable with Jennings.
Second, the government misinterprets the word “applies,” as used in
§ 1225(b)(2)(B)(ii). According to the government, whether § 1225(b)(1) “applies” to a
given individual turns not on the statutory language setting forth the grounds of
inadmissibility, but on whether an immigration officer decides to afford that
individual a full removal proceeding, as opposed to placing them into expedited
removal under section 1225(b)(1). Stay Appl. 25-26. But as the court of appeals
correctly held, this is not what the statute says. App. 43a-45a. Section 1225(b)(1)
contains no language indicating that an immigration officer’s decision whether to
place an individual in expedited or in regular removal proceedings is what controls
whether § 1225(b)(1) “applies.” Rather, the text defines the exempted individuals as
those to whom the statute, § 1225(b)(1), “applies”—namely, persons seeking entry

17

by fraud, misrepresentation, or without valid documents—and not only those whom
the agency has chosen to process under expedited removal.
Indeed, as the court of appeals further explains, the word “apply” is used
twice in the provision, each time to refer to the application of the statute and not
the exercise of an officer’s discretion:
The first time the word is used, in the lead-in to the section, it refers to
the application of a statutory section (“Subparagraph (A) shall not
apply”). The second time the word is used, it is used in the same
manner, again referring to the application of a statutory section (“to
whom paragraph [(b)](1) applies”). When the word is used the first
time, it tells us that subparagraph (A) shall not apply. When the word
is used the second time, it tells us to whom subparagraph (A) shall not
apply: it does not apply to applicants to whom § (b)(1) applies. The
word is used in the same manner both times to refer to the application
of subparagraph (A). The word is not used the first time to refer to the
application of a subparagraph (A), and the second time to an action by
DHS.
App. 44a-45a.
Third, the court of appeals correctly rejected the government’s contention
that when DHS exercises its discretion to put an individual in regular removal
proceedings

rather

than

expedited

removal,

that

individual

is

suddenly

recategorized from § 1225(b)(1) to (b)(2). “[T]he fact that an applicant is in removal
proceedings under § 1229a does not change his or her underlying category. A § (b)(1)
applicant does not become a § (b)(2) applicant or vice versa, by virtue of being placed
in a removal proceeding under § 1229a.” App. 40a. This follows from the plain
language of the statute, which distinguishes § (b)(1) and § (b)(2) by reference to the
grounds of inadmissibility, not the exercise of DHS officers’ discretion. And contrary
to the government’s brief, see Stay Appl. 10, Plaintiffs have never “conceded”
18

otherwise. Plaintiffs recognize that DHS officers have discretion to place § (b)(1)
applicants in removal proceedings. But they have consistently argued that the
authority to do so does not come from § (b)(2), and that such individuals remain
within the class of applicants to whom subject to § (b)(1) “applies.” Suppl. App.
420a-21a.
Section

1229a(a)(2)

authorizes

commencement

of

regular

removal

proceedings against any noncitizen who is potentially removable for any ground—
including noncitizens inadmissible based on the two grounds specified in
§ 1225(b)(1). Moreover, the government’s position that individuals who are put into
regular removal proceedings necessarily fall under § 1225(b)(2), not § 1225(b)(1),
ignores that § 1225(b)(1) itself encompasses individuals who are placed in regular
removal proceedings after passing a credible fear interview. See § 1225(b)(1)(B)(ii)
(individuals who pass credible fear “shall be detained for further consideration of
the application for asylum”); 8 C.F.R. § 208.30(f) (“further consideration” shall be in
the form of full removal proceedings under § 1229a). See also Matter of M-S-, 27
I.&N. Dec. 509, 515 (A.G. 2019) (noncitizens “who are originally placed in expedited
proceedings and then transferred to full proceedings after establishing a credible
fear,” remain part of the class of noncitizens to whom § 1225(b)(1) applies).
The government’s position also directly conflicts with the BIA’s decision in
Matter of E-R-M- & L-R-M-, 25 I.&N. Dec. 520 (BIA 2011), which upheld the
government’s prosecutorial discretion to initiate regular removal proceedings
against individuals subject to § 1225(b)(1). Id. at 523. Notably, the BIA stated that
19

individuals who had been placed in regular removal proceedings pursuant to the
government’s prosecutorial discretion were still individuals to whom § 1225(b)(1)
“applies.” Id.
Finally, the government misunderstands the court of appeals’ conclusion that
it was reasonable for Congress to exempt from contiguous territory return those
individuals to whom § 1225(b)(1) applies since “§ (b)(1) applies to bona fide asylum
applicants.” Stay Appl. 26 (referring to App. 46a). The government correctly notes
that noncitizens who are subject to § 1225(b)(2) can also apply for asylum. But these
are individuals who are inadmissible on additional grounds, based on criminal,
health, terrorism, and other concerns, beyond those that subject someone to § (b)(1).
And the government is wrong that “any alien—including ‘spies, terrorists,’ etc. is
eligible for expedited removal if he satisfies one of the section 1225(b)(1) predicates.”
Stay Appl. 27 (quoting App. 45a). If the government chooses to charge an individual
with any ground of inadmissibility beyond the two that trigger expedited removal
under § 1225(b)(1), that individual cannot be placed in expedited removal. See 8
C.F.R. § 235.3(b)(1).
For all of these reasons MPP violates the contiguous territory return
provision, § 1225(b)(2)(C), and the government is unlikely to prevail on this claim.
B.

MPP Violates the Government’s Non-refoulement Obligations.

The United States concedes that it has a mandatory non-refoulement
obligation not to send someone to any territory where she would be at risk of
persecution or torture. Stay Appl. 27.
20

The court of appeals correctly held that MPP violates our treaty-based nonrefoulement obligations, codified at 8 U.S.C. § 1231(b)(3)(A), by providing patently
inadequate procedures to determine who would face persecution or torture if
returned to Mexico. App. 47a-61a. Indeed, five of the six judges who have reviewed
the legality of MPP have expressed serious doubt about the legality of MPP’s fear
procedures. See id.; id. at 70a (Fernandez, J., dissenting) (noting “the dearth of
support for the government’s unique rule that an alien processed under the MPP
must spontaneously proclaim his fear of persecution or torture in Mexico”); id. at
87a (Watford, J., concurring) (concluding that the MPP’s fear procedures are
arbitrary and capricious and expecting that, at the least, officers must ask asylum
seekers if they fear return to Mexico); id. at 123a-126a. The fear procedures suffer
from several fatal defects: asylum seekers may be returned to Mexico without even
being told of their right to seek protection from return; they are held to the morelikely-than-not standard that applies in full removal proceedings; and they are
denied even the basic protections that apply in streamlined proceedings like
expedited removal where asylum officers employ a far lower threshold standard.
1.

The government first seeks to avoid its obligation by distinguishing

between “removing” and “returning” a noncitizen to conditions of persecution or
torture. It contends that 8 U.S.C. § 1231(b)(3) does not apply the non-refoulement
obligation to a “return” under the MPP because it “pertains to permanent removal
of aliens, not temporary return of an alien.” Stay Appl. 28. But as the court of

21

appeals explained, the term “remove” as used in § 1231(b)(3) encompasses both
deportations and returns. See App. 51a-52a.
The history of the withholding provision undermines the government’s
purported distinction. The United States’ non-refoulement obligation arises under
the 1951 and 1967 United Nations Protocols Relating to the Status of Refugees.
Paragraph one of Article 33 of the 1951 Convention, entitled “Prohibition of
expulsion or return (‘refoulement’),” provides:
No Contracting State shall expel or return (“refouler”) a refugee in any
manner whatsoever to the frontiers of territories where his life or
freedom would be threatened on account of his race, religion,
nationality, membership of a particular social group or political
opinion.
Protocol Relating to the Status of Refugees art. 33, Jan. 31, 1967, 19 U.S.T. 6223,
6225, 6276 (binding United States to comply with Article 33 of the 1951 Protocol).
Congress introduced the precursor to 8 U.S.C. § 1231(b)(3) as part of the
Refugee Act of 1980 to implement our obligations under Article 33. “If one thing is
clear from the legislative history of the . . . entire 1980 Act, it is that one of
Congress’ primary purposes was to bring United States refugee law into
conformance with the 1967 United Nations Protocol Relating to the Status of
Refugees.” INS v. Cardoza-Fonseca, 480 U.S. 421,436 (1987).
Accordingly, the 1980 Act included, among other things, a provision designed
to implement Article 33 of the 1951 Convention—former 8 U.S.C. § 1253(h)(1),
which this Court characterized as “parallel[ing] Article 33.” INS v. Aguirre-Aguirre,
526 U.S. 415, 427 (1999). Section 1253(h)(1) provided that “[t]he Attorney General
22

shall not deport or return any alien . . . to a country if the Attorney General
determines that such alien’s life or freedom would be threatened in such country” on
account of a protected ground. 8 U.S.C. § 1253(h)(1) (1980). In 1996, Congress
amended this provision to adopt the word “remove” in lieu of “deport or return” as
part of a general statutory revision under IIRIRA. Throughout IIRIRA, “removal”
became the new all-purpose word, encompassing other manners of expelling people
in the earlier statute. See Judulang v. Holder, 565 U.S. 42, 46-47 (2011). There is no
evidence that in adopting the term “removal,” Congress intended to exempt returns
from the bedrock duty of non-refoulement. See Whitman v. American Trucking
Assns., Inc., 531 U.S. 457, 468 (2001) (“Congress . . . does not, one might say, hide
elephants in mouseholes”).
2.

The government next faults the merits panel for not identifying the

precise procedures that would satisfy the non-refoulement obligation. See Stay Appl.
28. But the court of appeals set forth a framework for implementation of adequate
protections. See App. 50a-51a. The government resists even the bare minimum
procedure that five federal judges agreed is required: that immigration officers
simply ask asylum seekers if they have a fear of being returned to Mexico before
returning them there, to put them on notice that they have the right to object if they
fear persecution or torture there.
a.

While the court of appeals left the government discretion to fashion

procedures to comport with the non-refoulement obligations, it provided clear
guidance as to what procedures would be necessary to satisfy these obligations:
23

First, the court of appeals contrasted the standard by which the nonrefoulement obligation has previously been implemented with the MPP. App. 50a.
Under MPP, an asylum seeker must show that it is “more likely than not” that he or
she will be persecuted in Mexico. This is a high standard, ordinarily applied only
when an individual has the procedural protections of a full removal hearing under
Section 1229a. By contrast, in expedited removal proceedings at the border, asylum
officers apply a far lower “credible fear” standard, which is appropriate for a
threshold determination pending a full removal hearing. See 8 U.S.C. §§
1225(b)(1)(A)(ii), 1225(b)(1)(B)(ii) (requiring a credible fear of persecution). See also
8 C.F.R. § 208.31(c) (employing a reasonable fear standard in other streamlined
proceedings).
Second, the court of appeals contrasted the procedures adopted in MPP
with those in full removal and expedited removal proceedings. App. 50a-51a. MPP
requires that “asylum seekers must volunteer, without any prompting, that they
fear returning.” Id. at 50a. The court of appeals noted that in full removal
proceedings, asylum seekers are provided protections that include: advance notice of
the hearing with sufficient time to prepare; advance notice of the precise charge or
charges on which removal is sought; the assistance of their lawyer; the right to
appeal to the Board of Immigration Appeals; and the right to a subsequent petition
for review to the court of appeals. Id. Even in expedited removal proceedings,
procedural protections exceed those provided in the MPP context: asylum officers
are directed “to elicit all relevant and useful information bearing on whether the
24

applicant has a credible fear of persecution or torture” and to “determine that the
alien has an understanding of the credible fear determination process.” Id. at 51a
(citing 8 C.F.R. § 208.30(d)). See also, e.g., 8 C.F.R. §§ 208.30(d)(4), 208.3(c)
(providing right to consult with and rely on aid of attorney); id. §§ 208.30(d)(5),
208.31(c) (obligation to provide interpreter); id. §§ 208.30(d)(6) & (e)(1), 208.31(c)
(requirement that asylum officer summarize material facts, review summary with
applicant, and create written record of decision); id. §§ 208.30(g), 1208.30(g),
208.31(g) (right to review of negative determinations by an Immigration Judge).
The fear-screening procedures in place in full and expedited removal settings
satisfy the non-refoulement standard. The government may hold individuals to the
more-likely-than-not burden in full removal proceedings or hold individuals to a
lower screening standard. To uphold the injunction, the Court need only find that it
is likely that MPP falls short of both, and fails to satisfy the United States’ nonrefoulement obligation.
The court of appeals did not purport to set out what the non-refoulement
procedures would look like precisely, and that is best done by the district court,
which is able to conduct the sort of fact-finding necessary to fashion relief. A stay
would short-circuit that effort when nearly every judge to consider the issue sees
the non-refoulement interviews as violating our basic obligations to vulnerable
asylum seekers.
b.

The government asserts, without any evidence, that non-Mexican

asylum seekers are “as a class generally unlikely to suffer persecution on account of
25

a protected ground in Mexico” and argue that Plaintiffs merely complain of
“ordinary criminal conduct” Stay Appl. 29-30. But the unrefuted evidence
established that Plaintiffs were targeted on account of their nationality and other
protected grounds, by both private parties and government officials. See, e.g., App.
54a. (Gregory Doe describing tear gas thrown into shelters holding asylum seekers
and threats directed to Hondurans); id. at 55a (Christopher Doe repeatedly
questioned and threatened with arrest by Mexican police and assaulted and robbed
by Mexican citizens because of his Honduran nationality); App. 55a-56a (Howard
Doe robbed at gun point by men who identified him as Honduran); App. 54a-55a.
(describing groups in Mexico throwing stones at asylum seekers). Accord Suppl.
App. 660a (amicus explaining that “criminal actors often work in collaboration with
Mexican law enforcement and migration officials to target asylum seekers”); id. at
606a-08a (amicus reporting accounts of kidnap and rape by federal police in Mexico
and attempted kidnapping of tender-age children); id. at 605a (reporting that “‘twothirds of the LGBTI refugees . . . suffered sexual and gender-based violence in
Mexico’”) (citation omitted).
The government describes Plaintiffs’ fear of future harm as “speculative,”
Stay Appl. 29-30, but Plaintiffs’ past injuries—which are undisputed—are concrete
evidence of likely future harm. The government also seeks to downplay the
seriousness of Plaintiffs’ injuries, but the record is clear that Plaintiffs faced
assaults and the threat of kidnapping, rape, and even murder. See App. 53a-60a.

26

In short, as the court of appeals found, the “evidence in the record is
enough—indeed, far more than enough” to show that the government’s
“speculations” regarding the likelihood of non-Mexican asylum seekers experiencing
harm in Mexico “have no factual basis.” App. 60a; see also id. (citing amicus briefs
and news accounts as supporting Plaintiffs). Indeed, the U.S. State Department
itself has recognized the “victimization of migrants by criminal groups and in some
cases by police, immigration officers, and customs officials” in Mexico including
kidnappings, extortion, and sexual violence. See, e.g., 2018 State Dep’t Report at 1920 (noting spread of Central American gangs to Mexico and resulting threat to
“migrants who had fled the same gangs in their home countries” and that 99
percent of the crimes against migrants were “unresolved”). The government’s
procedures are wholly inadequate to protect against these harms.
II.

THE GOVERNMENT WILL SUFFER NO IRREPARABLE INJURY
ABSENT A STAY, AND THE EQUITIES AND PUBLIC INTEREST TIP
DECIDEDLY IN PLAINTIFFS’ FAVOR.
1.

The government has failed to meet its burden of showing irreparable

harm. The government asserts that the injunction will “cause chaos at the border”
because “many of the approximately 25,000 migrants in Mexico under MPP may
immediately attempt to reenter the United States in California or Arizona.” Stay
Appl. 33. But as former CBP Commissioner Gil Kerlikowske explains, CBP is wellequipped to handle this number of migrants, and has in fact handled far larger
migration flows in the past with fewer resources than it has today. Suppl. App.
686a, 687a.
27

In any event, this concern is unfounded because the preliminary injunction
does not require the immediate re-entry of individuals currently in Mexico pursuant
to MPP.
The district court’s plain language provides that:
Within 2 days of the effective date of this order, defendants shall
permit the named individual plaintiffs to enter the United States. At
defendants’ option, any named plaintiff appearing at the border for
admission pursuant to this order may be detained or paroled, pending
adjudication of his or her admission application.
App. 131a (emphasis added).
The district court further explained that:
[w]hile the injunction precludes the “return” under the MPP of any
additional aliens . . . nothing in the order determines if any
individuals, other than those appearing as plaintiffs in this action,
should be offered the opportunity to re-enter the United States . . . .
App. 130a n.14 (emphasis added).
Thus, the injunction prohibits the government only from returning asylum
seekers to Mexico—for example, when they first arrive in the United States, or, for
those individuals already in MPP, when they have been allowed into the United
States for their hearings in immigration court. Apart from the named plaintiffs, the
injunction does not provide any right to “re-enter.” As such, the injunction
contemplates an orderly unwinding of MPP—and not the rush on the border that
the government fears. To the extent there is any confusion on this point, this Court
can of course reiterate and underline the limited scope of the injunction in denying
the stay.
28

For the same reason, the government is wrong when it asserts that the
preliminary injunction will overwhelm the immigration detention system. See Stay
Appl. at 34-35. The government provides no support for its assertion that current
detention space, unburdened by previous levels of migration at the southern border,
cannot accommodate those in MPP who would require detention. And in any event,
the government retains discretion to manage detention levels, including by
releasing individuals under monitoring and other conditions pursuant to its parole
authority. See 8 U.S.C. § 1182(d)(5); 8 C.F.R. § 212.5(b); see also Jennings, 138 S.
Ct. at 837. The government asserts, again without evidence, that asylum seekers
whom it releases from detention will abscond. See Stay Appl. 11-12, 33. But the
government’s own data demonstrates that the vast majority of asylum seekers show
up for their court hearings and do not need to be detained.3
The government claims that migrants crowded the ports of entry in the short
period between the Ninth Circuit’s ruling and the grant of its temporary stay and
fears the same will happen if the injunction is not stayed. See Stay Appl. 33-34. But
even if migrants were to do so once the injunction goes into effect, such efforts
would be short lived—especially should this Court clarify that the injunction does
not require the re-entry of asylum seekers already returned to Mexico. And in any
Compare Executive Office for Immigration Review (“EOIR”), Adjudication
Statistics: Rates of Asylum Filings in Cases Originating with a Credible Fear Claim
(Nov. 2, 2018), https://tinyurl.com/rb57unn (345,356 cases referred to EOIR
following a credible fear claim between FY 2008 and FY 2018), with EOIR, In
Absentia Removal Orders in Cases Originating with a Credible Fear Claim (Apr. 23,
2019), https://tinyurl.com/t39n8vn (from FY 2008 to FY 2018, immigration judges
issued 44,269 in absentia removal orders, less than 13% of the cases referred).
3

29

event, CBP is equipped to handle any such temporary increases in the number of
migrants who present at ports of entry. See Suppl. App. 686a (former CBP
Commissioner explaining that the agency is “better-resourced” than in the past
when it handled larger influxes). Citing anecdotal evidence, the government claims
that the injunction, even as limited to the Ninth Circuit, will encourage migrants to
travel to Arizona and California to avoid being placed in MPP. Stay Appl. 33 (citing
App. 139a-140a). The government’s assertions are speculative and lack specific data
to support them, and moreover ignore the dangers that migrants would face in
traveling west thousands of miles to attempt entry within the Ninth Circuit. Suppl.
App. 687a.
2.

The government claims that MPP has deterred asylum seekers from

coming to the United States to make “baseless” asylum claims and abscond into the
interior. See Stay Appl. 32-33. But the government has never established that most
asylum seekers at the southern border raise “baseless” claims or pose flight risks.
See Suppl. App. 451a, 452a. Nor is MPP tailored to address this problem; it targets
individuals without regard to the merits of their asylum claims or their flight risk.
See id.; see also Suppl. App. 686a (former CBP Commissioner noting that MPP
appears to deter “all asylum applicants—even those with legitimate claims for
protection”). The government surely has no interest in deterring bona fide asylum
seekers. Indeed, “it is the historic policy of the United States to respond to the
urgent needs of persons subject to persecution in their homelands.” Refugee Act of

30

1980, Pub. L. No. 96-212, § 101(a), 94 Stat. 102. Yet MPP returns asylum seekers to
Mexico regardless of the merits of their claims.
Even assuming the government had a legitimate deterrence interest here, the
consensus among migration experts is that the recent decline in migration is
attributable to factors beyond MPP—most significantly, the stepped up enforcement
by Mexico at its Southern border. See Suppl. App. 683a (Declaration of Jeremy Slack
explaining that the decline in migration “is almost entirely the result of efforts by
the Mexican government to police their southern border and interdict foreign
nationals traveling through Mexico”); see also id. at 673a (declaration from Mexico’s
Ambassador to the United States from 2007-2013, noting the “Mexican
government’s efforts to deter transmigration and to offer visas and working permits
to third country migrants reaching Mexican soil”).
The government asserts that the injunction undermines bilateral relations
between the U.S. and Mexico and ongoing negotiations regarding the southern
border. Stay Appl. 36-37. But there is no evidence that the injunction would harm
diplomatic relations. To start, MPP was hardly the result of a bilateral negotiation.
See

Suppl.

App.

531a

(quoting

Mexican

Foreign

Ministry’s

repeated

characterization of MPP as a “unilateral measure”). In any event, if a policy is
unlawful, the potential impact on diplomatic negotiations from enjoining that policy
cannot insulate the policy from such an injunction.
3.

Finally,

the government argues that

the injunction produces

“significant public safety risks” to both citizens of the U.S. and Mexico and migrants
31

themselves. Stay Appl. 36. But the government has never established that asylum
seekers placed in MPP pose a threat to communities in the United States. And it is
MPP that has created a humanitarian crisis on Mexico’s northern border, putting
asylum seekers in harm’s way, increasing the burden on local Mexican cities, and
triggering an increase in nativism and xenophobia. See Suppl. App. 672a, 673a
(former Mexican Ambassador, noting that cities and states that faced security
concerns prior to MPP “are now strained to provide even basic care and safety to
migrants”). If anything, enjoining MPP may lessen the burden on these border
cities, by preventing additional migrants from being returned there.
4.

Because the government fails to show either a likelihood of success or

irreparable injury, the Court need not “balance the equities and weigh the relative
harms to the applicant and to the respondent.” Hollingsworth, 558 U.S. at 190. In
any event, whatever harms the government may suffer are dramatically outweighed
by the harms that MPP will inflict on Plaintiffs and the public if it is allowed
continue.
As the court of appeals found, “[u]ncontested evidence in the record
establishes that non-Mexicans returned to Mexico under the MPP risk substantial
harm, even death, while they await adjudication of their applications for asylum.”
App. 62a. The Plaintiff Organizations will also suffer serious harm if a stay is
entered. They have already had to divert significant resources to restructuring their
programs, which impairs their ability to carry out their core objectives of providing
life-saving representation to asylum seekers. See Supp App. 449a; see also id. at
32

33a, 34a, 276a, 284a, 312a, 313a); Czyzewski v. Jevic Holding Corp., 137 S. Ct. 973,
983 (2017) (recognizing injury based on diversion of resources); Havens Realty Corp.
v. Coleman, 455 U.S. 363 (1982) (same).
Finally, the government wrongly claims that the “status quo” is one where
MPP is operative. Stay Appl. 37. The fact that, because of a prior stay, the
government was able to operate a policy that has been enjoined as likely unlawful,
that radically departs from the government’s historical practice, and that endangers
the lives of asylum seekers does not somehow render MPP the status quo. The
government should not be able to use the existence of a prior stay as a reason for a
further stay. Preliminary injunctions are meant to “preserve the relative positions
of the parties,” Univ. of Tex. v. Camenisch, 451 U.S. 390, 395 (1981), prior to the
unlawful conduct at issue, and “prevent irreparable injury so as to preserve the
court’s ability to render a meaningful decision on the merits.” Canal Auth. of State
of Fla. v. Callaway, 489 F.2d 567, 576 (5th Cir. 1974). The preliminary injunction in
this case falls squarely within those traditional limits.
III.

THE COURT SHOULD NOT NARROW THE SCOPE OF THE
INJUNCTION.
A stay is also not warranted by the scope of the preliminary injunction, which

the district court carefully tailored and the Ninth Circuit further limited
geographically. A long line of cases from this Court and lower courts recognize that
relief under the Administrative Procedure Act (“APA”) may include setting aside a
challenged policy. The district court’s injunction is consistent with ordinary

33

principles of equity because it is necessary to address the organizational Plaintiffs’
injuries.
1.

The district court crafted its order to avoid broadly interfering with

immigration enforcement by providing no right to re-enter the United States to
asylum seekers already sent to Mexico under MPP. See App. 130a n.14. The Ninth
Circuit then limited that carefully-tailored injunction to its own boundaries. In sum,
the injunction interferes with immigration enforcement no more than minimally
necessary to protect Plaintiffs, and does so within only a part of the U.S.-Mexico
border.
The government nonetheless argues that the district court’s injunction is
overbroad because it is not limited to “the individual named respondents and
specifically identified aliens who the respondent organizations can credibly prove
are their clients[.]” Stay Appl. 7. But the APA directs courts to “set aside” unlawful
agency action. 5 U.S.C. § 706(2)(A). Both this Court and the D.C. Circuit have held
that setting aside a challenged action—also known as vacatur—is the presumptive
remedy for an APA violation. See, e.g., Fed. Commc’ns Comm’n v. NextWave
Personal Commc'ns Inc., 537 U.S. 293, 300 (2003) (“agency action must be set aside
if the action was ‘arbitrary, capricious, an abuse of discretion, or otherwise not in
accordance with law’”) (citations omitted); Nat’l Mining Ass’n v. U.S. Army Corps of
Eng’rs., 145 F.3d 1399, 1409 (D.C. Cir. 1998) (“We have made clear that ‘(w)hen a
reviewing court determines that the agency regulations are unlawful, the ordinary

34

result is that the rules are vacated . . . .’”) (quoting Harmon v. Thornburgh, 878 F.2d
484, 495, n.21 (D.C.Cir.1989)).
[Where] the ‘agency action’ [] consists of a rule of broad applicability . .
. the result is that the rule is invalidated, not simply that the court
forbids its application to a particular individual. Under these
circumstances a single plaintiff . . . may obtain ‘programmatic’ relief
that affects the rights of parties not before the court.
Lujan v. Nat’l Wildlife Fed’n, 497 U.S. 871, 913 (1990) (Blackmun, J., dissenting but
apparently expressing the view of all nine Justices on this question); see also Nat’l
Mining Ass’n, 145 F.3d at 1409.4 The government does not explain why MPP should
not be “set aside” as a matter of ordinary APA relief.5
2.
necessary

Ordinary principles of equity also support the injunction’s scope is
to

redress

the

Plaintiff

Organizations’

injuries.

The

Plaintiff

Organizations challenge their own ongoing injuries, as well as harms inflicted on
their clients. The government’s policy forces them to divert significant resources to
restructure their models of service delivery, including by impeding their service of
asylum seekers in immigration court and requiring them to conduct outreach,
This Court has also denied a stay request in part in order to preserve a
preliminary injunction for “those similarly situated” to the plaintiffs and their
clients. See Trump v. Int’l Refugee Assistance Project, 137 S. Ct. 2080, 2087 (2017)
(explaining that the scope of an injunction requires “an equitable judgment” that
accounts for “the interests of the public at large”).
5 Applicants argue that “universal injunctions were not a recognized form of relief at
the time of the APA’s passage[.]” Stay Appl. 39. In fact, “universal injunctions” have
been issued by Article III courts, including this Court, for more than a century. See
Mila Sohni, The Lost History of the “Universal” Injunction, 120 Harv. L. Rev. 920
(2020). But regardless of whether the term “universal injunction” was current at the
passage of the APA, the APA directs courts to “set aside” unlawful agency action. 5
U.S.C. § 706(2)(A). The APA also empowers courts to “postpone the effective date of
an agency action” pending judicial review. 5 U.S.C. § 705. Thus, the concept of a
“universal injunction” is organic to APA review.
35
4

identification, and screening of potential asylum seeker clients in Mexico. Relief
limited to “specifically identified” individuals represented by the Plaintiff
Organizations would not address “the nature and extent of the [] violation,” Milliken
v. Bradley, 433 U.S. 267, 270 (1977), because the Plaintiff Organizations’ other
injuries are caused by the operation of MPP as a whole. Even if their clients
received relief, so long as MPP continues to operate the Plaintiff Organizations
would have to continue diverting resources in frustration of their mission.
The government also argues that the “limitation on the injunction” to the
Ninth Circuit’s boundaries will result in noncitizens “travel[ing] to ports of entry
and seek[ing] admission (or [to] cross the border illegally) in Arizona or California.”
Stay Appl. 6. But as explained by former CBP Commissioner Gil Kerlikowske, the
government’s predictions are not only speculative and unsupported by any data, but
they also ignore the dangers individuals would face in making such a trip. See
Suppl. App. 687a, 688a (discussing App. 158a-159a). And even if the government
were correct, that would prove only that the district court’s original injunction
covering all of the Southwest border should be reinstated. There is a special “need
for uniformity in immigration policy,” Regents of the Univ. of Cal. v. Dep’t of
Homeland Sec., 908 F.3d 476, 511 (9th Cir. 2018), where “fragment[ation] . . . run[s]
afoul of the constitutional and statutory requirement for uniform immigration law
and policy,” Washington v. Trump, 847 F.3d 1151, 1166–67 (9th Cir. 2017) (citing
Texas v. United States, 809 F.3d 134, 187–88 (5th Cir. 2015)). The solution to the
purported problem identified by the government is not to allow an unlawful
36

program to continue, but rather to prevent enforcement of MPP anywhere on the
U.S.-Mexico border.
The government’s argument proves too much. By its logic, a stay would be
warranted whenever a federal appellate court enjoins a national immigration
enforcement policy within its jurisdiction. Under the government’s view, any such
decision would incentivize noncitizens to attempt to migrate to parts of the country
covered by the injunction. But appellate courts are surely empowered to determine
the lawfulness of federal enforcement programs within their own jurisdictions. The
fact that such decisions may affect migration patterns cannot be a basis for a stay.
CONCLUSION
The application should be denied.
Respectfully submitted,
Cecillia Wang
Katrina Eiland
Cody Wofsy
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
39 Drumm Street
San Francisco, CA 94111
David Cole
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15th Street NW
Washington, DC 20005
Melissa Crow
SOUTHERN POVERTY LAW CENTER
1101 17th Street, NW Suite 705
Washington, D.C. 20036

/s/ Judy Rabinovitz
Judy Rabinovitz
Counsel of Record
Michael Tan
Anand Balakrishnan
Daniel Galindo
Celso Javier Perez
Omar Jadwat
Lee Gelernt
Steven Watt
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 Broad Street
New York, NY 10004
212-549-2618
jrabinovitz@aclu.org
Sean Riordan
AMERICAN CIVIL LIBERTIES UNION OF
NORTHERN CALIFORNIA, INC.
37

Gracie Willis
SOUTHERN POVERTY LAW CENTER
150 East Ponce de Leon Avenue
Suite 340
Decatur, GA 30030

39 Drumm Street
San Francisco, CA 94111
Blaine Bookey
Karen Musalo
Kathryn Jastram
Sayoni Maitra
Anne Peterson
CENTER FOR GENDER AND REFUGEE
STUDIES
200 McAllister St.
San Francisco, CA 94102

Dated: March 9, 2020.
Attorneys for Respondents Innovation Law Lab, et al.

